        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Southwestern Federal Power
System's Fiscal Year 2010 Financial
Statement Audit




OAS-FS-12-10                               July 2012
                                  Department of Energy
                                    Washington, DC 20585

                                           July 30, 2012

MEMORANDUM FOR THE ADMINISTRATOR, SOUTHWESTERN POWER
                  ADMINISTRATION


FROM:                  Daniel M. Weeber
                       Assistant Inspector General
                         for Audits and Administration
                       Office of Inspector General

SUBJECT:               INFORMATION: Southwestern Federal Power System's Fiscal Year
                       2010 Financial Statement Audit

The attached report present the results of the independent certified public accountants' audit of the
Southwestern Federal Power System's (SWFPS) combined balance sheets, as of September 30,
2010 and 2009, and the related combined statements of revenues and expenses, changes in net
Federal investment and cash flows.

To fulfill the Office of Inspector General's (OIG) audit responsibilities, we contracted with the
independent public accounting firm of KPMG, LLP (KPMG) to conduct the audit, subject to our
review. KPMG is responsible for expressing an opinion on the SWFPS's financial statements
and reporting on applicable internal controls and compliance with laws and regulations. The
OIG monitored audit progress and reviewed the audit report and related documentation. This
review disclosed no instances where KPMG did not comply, in all material respects, with
generally accepted Government auditing standards. The OIG did not express an independent
opinion on the SWFPS's financial statements.

KPMG concluded that the combined financial statements fairly present, in all material respects,
the respective financial position of the Southwestern Federal Power System as of September 30,
2010 and 2009, and the results of its operations and its cash flow for the years then ended, in
conformity with United States generally accepted accounting principles.

As part of this review, the auditors also considered the SWFPS's internal controls over financial
reporting and tested for compliance with certain provisions of laws, regulations, contracts and
grant agreements that could have a direct and material effect on the determination of financial
statement amounts. The audit identified the following deficiencies in internal control over
financial reporting, as reported in the Independent Auditor's Report on Internal Control over
Financial Reporting based on the Southwestern Federal Power System's Fiscal Year 2006, 2007,
2008 and 2009 Financial Statement Audits, which were considered to be material weaknesses:
                                                2


       •   Four internal control deficiencies were identified over accounting for utility plant,
           each of which were considered to be significant. When combined together, these four
           conditions were considered a material weakness; and,

       •   Five internal control deficiencies were identified over Accounting Policies and
           Procedures, each of which were considered to be significant. When combined
           together, these five conditions were considered a material weakness.

U.S. Army Corps of Engineers and Southwestern Power Administration management agreed
with the findings and recommendations that pertained to them and agreed to take necessary
corrective action by June 30, 2012.

The audit disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards.

                                                                     Report No.: OAS-FS-12-10

Attachment

cc:   Acting Deputy Chief Financial Officer, CF-2
      Director, Office of Finance and Accounting, CF-10
      Director, Financial Management Division, Southwestern Power Administration
      Director, Office of Financial Risk, Policy and Controls, CF-50
      Assistant Director, Office of Financial Risk, Policy and Controls, CF-50
      Audit Resolution Specialist, Office of Financial Risk, Policy and Controls, CF-50
      Team Leader, Office of Financial Risk, Policy and Controls, CF-50
SOUTHWESTERN FEDERAL POWER SYSTEM
        Combined Financial Statements

         September 30, 2010 and 2009
  (With Independent Auditors’ Report Thereon)
                                KPMG LLP
                                Suite 310
                                100 West Fifth Street
                                Tulsa, OK 74103




                                        Independent Auditors’ Report


Administrator, The Southwestern Power Administration and
The Inspector General, U.S. Department of Energy:

We have audited the accompanying combined balance sheets of the Southwestern Federal Power System
(SWFPS), as of September 30, 2010 and 2009, and the related combined statements of changes in net
Federal investment, revenues and expenses, and cash flows for the years then ended. As described in note
1(a), the combined financial statement presentation includes all of the hydroelectric generating and power
operations of one federal agency (hereinafter referred to as the generating agency), and the transmission
and disposition of the related power by the Southwestern Power Administration (Southwestern), a separate
federal agency. These combined financial statements are the responsibility of the managements of
Southwestern and the generating agency. Our responsibility is to express an opinion on these combined
financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audits to obtain reasonable assurance about whether the combined financial statements are free of
material misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of Southwestern and the generating agency’s internal control
over financial reporting. Accordingly, we express no such opinion. An audit also includes examining, on a
test basis, evidence supporting the amounts and disclosures in the combined financial statements, assessing
the accounting principles used and significant estimates made by management, as well as evaluating the
overall combined financial statement presentation. We believe that our audits provide a reasonable basis
for our opinion.

In our opinion, the combined financial statements referred to above present fairly, in all material respects,
the respective financial position of the Southwestern Federal Power System, as of September 30, 2010 and
2009, and the results of its operations and its cash flow for the years then ended, in conformity with
U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated June 18, 2012
on our consideration of Southwestern and the generating agency’s internal control over financial reporting
and on our tests of its compliance with certain provisions of laws, regulations, contracts, and grant
agreements and other matters. The purpose of those reports is to describe the scope of our testing of
internal control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. Those reports are an integral
part of an audit performed in accordance with Government Auditing Standards and should be considered in
assessing the results of our audits.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Our audits were conducted for the purpose of forming an opinion on the 2010 and 2009 SWFPS‘s
combined financial statements taken as a whole. The supplementary information in the combining financial
statements is presented for purposes of additional analysis and is not a required part of the basic combined
financial statements. The supplementary information has been subjected to the auditing procedures applied
in the audit of the basic combined financial statements and, in our opinion, is fairly stated in all material
respects in relation to the basic combined financial statements taken as a whole.




June 18, 2012




                                                  2
                              SOUTHWESTERN FEDERAL POWER SYSTEM
                                            Combined Balance Sheets
                                           September 30, 2010 and 2009


                                  Assets                                         2010             2009
Utility plant:
   Plant in service                                                      $   1,377,538,963    1,349,499,896 
   Accumulated depreciation                                                   (622,185,997)    (608,686,560)
   Construction work in progress                                               139,153,832      112,616,706 
              Net utility plant                                               894,506,798      853,430,042 
Current assets:
  Cash                                                                        239,419,661      208,531,459 
  Funds held in escrow                                                         48,913,656       56,882,873 
  Accounts receivable                                                          17,451,483       14,295,361 
  Material and supplies, at average cost                                        2,210,042        2,511,866 
              Total current assets                                            307,994,842      282,221,559 
  Banking exchange receivables                                                  3,492,029        3,360,544 
  Deferred workers’ compensation                                               15,687,514       16,679,751 
  Other assets                                                                 22,189,755       30,821,588 
              Total assets                                               $   1,243,870,938    1,186,513,484 
                 Federal Investment and Liabilities
Federal Investment:
  Net investment of U.S. government                                      $    887,066,788      883,672,623 
  Accumulated net revenues                                                    243,535,704      220,102,353 
              Total Federal investment                                       1,130,602,492    1,103,774,976 
Current liabilities:
  Accounts payable and accrued liabilities                                      9,835,341       11,954,483 
  Advances for construction                                                    16,957,829       22,244,110 
              Total current liabilities                                        26,793,170       34,198,593 
Accrued workers’ compensation                                                  16,890,284       17,841,615 
Purchased power and banking exchange deferral                                  47,832,866       30,698,300 
Hydropower water storage reallocation deferral                                 21,752,126               — 
              Total liabilities                                               113,268,446       82,738,508 
Commitments and contingencies (notes 5 and 6)
              Total Federal Investment and Liabilities                   $   1,243,870,938    1,186,513,484 


See accompanying notes to combined financial statements.




                                                         3
                                  SOUTHWESTERN FEDERAL POWER SYSTEM
                                     Combining Schedule of Balance Sheet Data
                                                September 30, 2010


                        Assets                               Southwestern          Corps            Total
Utility plant:
   Plant in service                                      $    298,976,824       1,078,562,139    1,377,538,963 
   Accumulated depreciation                                  (141,870,612)       (480,315,385)    (622,185,997)
   Construction work in progress                               19,153,942         119,999,890      139,153,832 
              Net utility plant                               176,260,154        718,246,644      894,506,798 
Current assets:
  Cash                                                         77,463,789        161,955,872      239,419,661 
  Funds held in escrow                                         19,501,069         29,412,587       48,913,656 
  Accounts receivable                                          17,371,647             79,836       17,451,483 
  Material and supplies, at average cost                        2,210,042                           2,210,042 
              Total current assets                            116,546,547        191,448,295      307,994,842 
  Banking exchange receivables                                  3,492,029                 —         3,492,029 
  Deferred workers’ compensation                                3,798,002         11,889,512       15,687,514 
  Other assets                                                 22,189,755                 —        22,189,755 
              Total assets                               $    322,286,487        921,584,451     1,243,870,938 
        Federal Investment and Liabilities
Federal Investment:
  Net investment of U.S. government                      $    143,611,177        743,455,611      887,066,788 
  Accumulated net revenues                                     81,295,933        162,239,771      243,535,704 
              Total Federal investment                        224,907,110        905,695,382     1,130,602,492 
Current liabilities:
  Accounts payable and accrued liabilities                      6,151,898           3,683,443       9,835,341 
  Advances for construction                                    16,957,829                  —       16,957,829 
              Total current liabilities                        23,109,727           3,683,443      26,793,170 
Accrued workers’ compensation                                   4,684,658         12,205,626       16,890,284 
Purchased power and banking exchange deferral                  47,832,866                 —        47,832,866 
Hydropower water storage reallocation deferral                 21,752,126                 —        21,752,126 
              Total liabilities                                97,379,377         15,889,069      113,268,446 
Commitments and contingencies (notes 5 and 6)
              Total federal investment and liabilities   $    322,286,487        921,584,451     1,243,870,938 


See accompanying notes to combined financial statements.




                                                         4
                                  SOUTHWESTERN FEDERAL POWER SYSTEM
                                     Combining Schedule of Balance Sheet Data
                                                September 30, 2009


                        Assets                               Southwestern          Corps            Total
Utility plant:
   Plant in service                                      $    280,587,206       1,068,912,690    1,349,499,896 
   Accumulated depreciation                                  (141,398,600)       (467,287,960)    (608,686,560)
   Construction work in progress                               26,760,007          85,856,699      112,616,706 
              Net utility plant                               165,948,613        687,481,429      853,430,042 
Current assets:
  Cash                                                         66,763,859        141,767,600      208,531,459 
  Funds held in escrow                                         24,501,415         32,381,458       56,882,873 
  Accounts receivable                                          13,801,756            493,605       14,295,361 
  Material and supplies, at average cost                        2,290,127            221,739        2,511,866 
              Total current assets                            107,357,157        174,864,402      282,221,559 
  Banking exchange receivables                                  3,360,544                 —         3,360,544 
  Deferred workers’ compensation                                3,787,931         12,891,820       16,679,751 
  Other assets                                                 30,821,588                 —        30,821,588 
              Total assets                               $    311,275,833        875,237,651     1,186,513,484 
        Federal Investment and Liabilities
Federal Investment:
  Net investment of U.S. government                      $    141,849,869        741,822,754      883,672,623 
  Accumulated net revenues                                    106,696,922        113,405,431      220,102,353 
              Total Federal investment                        248,546,791        855,228,185     1,103,774,976 
Current liabilities:
  Accounts payable and accrued liabilities                      5,179,260           6,775,223      11,954,483 
  Advances for construction                                    22,244,110                  —       22,244,110 
  Hydropower water storage reallocation deferral                       —                   —               — 
              Total current liabilities                        27,423,370           6,775,223      34,198,593 
Accrued workers’ compensation                                   4,607,372         13,234,243       17,841,615 
Purchased power and banking exchange deferral                  30,698,300                 —        30,698,300 
Hydropower water storage reallocation deferral                         —                  —                — 
              Total liabilities                                62,729,042         20,009,466       82,738,508 
Commitments and contingencies (notes 5 and 6)
              Total federal investment and liabilities   $    311,275,833        875,237,651     1,186,513,484 


See accompanying notes to combined financial statements.




                                                         5
                                   SOUTHWESTERN FEDERAL POWER SYSTEM
                                Combined Statements of Changes in Net Federal Investment
                                         Years ended September 30, 2010 and 2009


                                                                      Net          Accumulated          Total
                                                                investment of           net            federal
                                                               U.S. government       revenues        investment
Total Federal investment as of September 30, 2008          $      841,516,494         162,209,865    1,003,726,359 
Additions:
  Congressional appropriations                                    143,443,238          17,730,000     161,173,238 
  Interest on Federal investment and other                         17,761,900                  —       17,761,900 
             Total additions to net Federal investment            161,205,138          17,730,000     178,935,138 
Deductions:
  Funds returned to Treasury                                      (124,315,915)                —     (124,315,915)
  Transfer to/from other Federal agencies, net                       5,266,906                 —        5,266,906 
             Total deductions to Federal investment               (119,049,009)                —     (119,049,009)
Net revenues for 2009                                                       —          40,162,488      40,162,488 
Total Federal investment as of September 30, 2009                 883,672,623         220,102,353    1,103,774,976 
Additions:
  Congressional appropriations                                    125,566,027                  —      125,566,027 
  Interest on Federal investment and other                         16,397,365                  —       16,397,365 
             Total additions to net Federal investment            141,963,392                  —      141,963,392 
Deductions:
  Funds returned to Treasury                                      (138,536,376)                —     (138,536,376)
  Transfer to/from other Federal agencies, net                         (32,851)                —          (32,851)
             Total deductions to Federal investment               (138,569,227)                —     (138,569,227)
Net revenues for 2010                                                       —          23,433,351      23,433,351 
Total Federal investment as of September 30, 2010          $      887,066,788         243,535,704    1,130,602,492 


See accompanying notes to combined financial statements.




                                                           6
                                                                              SOUTHWESTERN FEDERAL POWER SYSTEM
                                                                         Combining Schedule of Changes in Net Federal Investment Data
                                                                                  Years ended September 30, 2010 and 2009


                                                                Southwestern        Southwestern          Southwestern           Corps            Corps            Corps
                                                                      net           accumulated               total                net         accumulated         total           Total
                                                                investment of       net revenues             federal         investment of     net revenues       federal         federal
                                                               U.S. government        (deficit)            investment       U.S. government      (deficit)      investment      investments
Total Federal investment as of September 30, 2008          $      133,697,835           86,434,184          220,132,019         707,818,659       75,775,681     783,594,340    1,003,726,359 
Additions:
  Congressional appropriations                                      28,414,000          17,730,000           46,144,000         115,029,238               —      115,029,238     161,173,238 
  Interest on Federal investment and other                           3,430,945                  —             3,430,945          14,330,955               —       14,330,955      17,761,900 
              Total additions to net Federal investment             31,844,945          17,730,000           49,574,945         129,360,193               —      129,360,193     178,935,138 
Deductions:
  Funds returned to Treasury                                       (11,204,990)                 —           (11,204,990)       (113,110,925)              —     (113,110,925)   (124,315,915)
  Transfer to/from other Federal agencies, net                     (12,487,921)                 —           (12,487,921)         17,754,827               —       17,754,827       5,266,906 
              Total deductions to Federal investment               (23,692,911)                 —           (23,692,911)        (95,356,098)              —      (95,356,098)   (119,049,009)
Net revenues (deficit) for 2009                                             —            2,532,738            2,532,738                  —        37,629,750      37,629,750      40,162,488 
Total Federal investment as of September 30, 2009                 141,849,869          106,696,922          248,546,791         741,822,754      113,405,431     855,228,185    1,103,774,976 
Additions:
  Congressional appropriations                                      13,076,000                  —            13,076,000         112,490,027               —      112,490,027     125,566,027 
  Interest on Federal investment and other                           3,020,246                  —             3,020,246          13,377,119               —       13,377,119      16,397,365 
              Total additions to net Federal investment             16,096,246                  —            16,096,246         125,867,146               —      125,867,146     141,963,392 
Deductions:
  Funds returned to Treasury                                           443,279                  —               443,279        (138,979,655)              —     (138,979,655)   (138,536,376)
  Transfer to/from other Federal agencies, net                     (14,778,217)                 —           (14,778,217)         14,745,366               —       14,745,366         (32,851)
              Total deductions to Federal investment               (14,334,938)                 —           (14,334,938)       (124,234,289)              —     (124,234,289)   (138,569,227)
Net revenues (deficit) for 2010                                             —          (25,400,989)         (25,400,989)                 —        48,834,340      48,834,340      23,433,351 
Total Federal investment as of September 30, 2010          $      143,611,177           81,295,933          224,907,110         743,455,611      162,239,771     905,695,382    1,130,602,492 


See accompanying notes to combined financial statements.




                                                                                                      7
                            SOUTHWESTERN FEDERAL POWER SYSTEM
                              Combined Statements of Revenues and Expenses
                                    Years ended September 30, 2010 and 2009


                                                                                2010           2009
Operating revenues:
  Sales of electric power                                             $       182,808,151    166,999,249 
  Transmission and other operating revenues                                    22,112,654     16,236,646 
             Total operating revenues before deferrals                        204,920,805    183,235,895 
  Net purchased power and banking exchange deferral                           (15,679,782)   (23,647,784)
             Total operating revenues                                         189,241,023    159,588,111 
  Non reimbursable revenues                                                       453,029        798,830 
             Total revenues                                                   189,694,052    160,386,941 
Operating expenses:
  Operation and maintenance                                                    80,501,155     61,537,944 
  Purchased power and banking exchange                                          4,121,266      2,674,735 
  Depreciation and amortization                                                29,116,177     29,305,410 
  Transmission service charges by others                                        3,074,161      3,093,593 
  Retirement and other employee benefit expense                                 7,353,818      6,346,124 
  Non reimbursable expenses                                                    27,350,877      1,300,718 
             Total operating expenses                                         151,517,454    104,258,524 
             Net operating revenues                                            38,176,598     56,128,417 
Interest expense:
   Interest on Federal investment and other                                    17,933,659     18,182,717 
   Allowance for funds used during construction                                (3,190,412)    (2,216,788)
             Net interest expense                                              14,743,247     15,965,929 
             Net revenues                                             $        23,433,351     40,162,488 


See accompanying notes to combined financial statements.




                                                      8
                                SOUTHWESTERN FEDERAL POWER SYSTEM
                                Combining Schedule of Revenues and Expenses Data
                                           Year ended September 30, 2010


                                                                   Southwestern      Corps           Total
Operating revenues:
  Sales of electric power                                      $    182,808,151              —     182,808,151 
  Transmission and other operating revenues                          19,491,730       2,620,924     22,112,654 
             Total operating revenues before deferrals              202,299,881       2,620,924    204,920,805 
  Net purchased power and banking exchange deferral                 (15,679,782)             —     (15,679,782)
  Revenue distributed to Corps                                     (132,497,234)    132,497,234             — 
             Total operating revenues                                54,122,865     135,118,158    189,241,023 
  Non reimbursable revenues                                             421,900          31,129        453,029 
             Total revenues                                          54,544,765     135,149,287    189,694,052 
Operating expenses:
  Operation and maintenance                                          24,045,326      56,455,829     80,501,155 
  Purchased power and banking exchange                                4,121,266              —       4,121,266 
  Depreciation and amortization                                      13,718,157      15,398,020     29,116,177 
  Transmission service charges by others                              3,074,161              —       3,074,161 
  Retirement and other employee benefit expense                       4,801,605       2,552,213      7,353,818 
  Non reimbursable expenses                                          27,350,877              —      27,350,877 
             Total operating expenses                                77,111,392      74,406,062    151,517,454 
             Net operating revenues (deficit)                        (22,566,627)    60,743,225     38,176,598 
Interest expense:
   Interest on Federal investment and other                            4,553,825     13,379,834     17,933,659 
   Allowance for funds used during construction                       (1,719,463)    (1,470,949)    (3,190,412)
             Net interest expense                                      2,834,362     11,908,885     14,743,247 
             Net revenues (deficit)                            $     (25,400,989)    48,834,340     23,433,351 
Accumulated net revenues (deficit):
  Balance, beginning of year                                   $    106,696,922     113,405,431    220,102,353 
    Congressional appropriations                                             —               —              — 
    Net revenues (deficit)                                          (25,400,989)     48,834,340     23,433,351 
  Balance, end of year                                         $     81,295,933     162,239,771    243,535,704 


See accompanying notes to combined financial statements.




                                                           9
                                SOUTHWESTERN FEDERAL POWER SYSTEM
                                Combining Schedule of Revenues and Expenses Data
                                          Year ended September 30, 2009


                                                               Southwestern        Corps           Total
Operating revenues:
  Sales of electric power                                  $    166,999,249                —     166,999,249 
  Transmission and other operating revenues                      14,987,972         1,248,674     16,236,646 
             Total operating revenues before deferrals          181,987,221         1,248,674    183,235,895 
  Net purchased power and banking exchange deferral             (23,647,784)             —       (23,647,784)
  Revenue distributed to Corps                                 (108,625,473)    108,625,473               — 
             Total operating revenues                            49,713,964     109,874,147      159,588,111 
  Non reimbursable revenues                                         701,452            97,378        798,830 
             Total revenues                                      50,415,416     109,971,525      160,386,941 
Operating expenses:
  Operation and maintenance                                      21,298,669        40,239,275     61,537,944 
  Purchased power and banking exchange                            2,674,735                —       2,674,735 
  Depreciation and amortization                                  12,288,093        17,017,317     29,305,410 
  Transmission service charges by others                          3,093,593                —       3,093,593 
  Retirement and other employee benefit expense                   4,278,137         2,067,987      6,346,124 
  Non reimbursable expenses                                       1,300,718                —       1,300,718 
             Total operating expenses                            44,933,945        59,324,579    104,258,524 
             Net operating revenues                               5,481,471        50,646,946     56,128,417 
Interest expense:
   Interest on Federal investment and other                        4,088,168       14,094,549     18,182,717 
   Allowance for funds used during construction                   (1,139,435)      (1,077,353)    (2,216,788)
             Net interest expense                                 2,948,733        13,017,196     15,965,929 
             Net revenues                                  $      2,532,738        37,629,750     40,162,488 


See accompanying notes to combined financial statements.




                                                         10
                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                       Combined Statements of Cash Flows
                                     Years ended September 30, 2010 and 2009


                                                                                  2010            2009
Cash provided by operating activities:
  Net revenues                                                         $         23,433,351      40,162,488 
  Adjustments to reconcile net revenues to net cash
     provided by operating activities:
        Depreciation and amortization                                            29,116,177      29,305,410 
        Benefit expense paid by other Federal agencies                            3,880,912       3,012,173 
        Interest expense on Federal investment and other                         16,397,365      17,761,900 
        Allowance for funds used during construction                             (3,190,412)     (2,216,788)
        (Increase) decrease in assets:
           Accounts receivable                                                   (3,156,122)      2,188,908 
           Materials and supplies                                                   301,824          97,222 
           Banking exchange receivables                                            (131,485)        560,275 
           Deferred workers’ compensation                                           992,237         207,847 
           Other assets                                                           8,631,833      (7,944,418)
        Increase (decrease) in liabilities:
           Accounts payable and accrued liabilities                              (2,119,142)      3,315,333 
           Accrued workers’ compensation                                           (951,331)       (236,263)
           Purchased power and banking exchange deferral                         17,134,566      24,265,206 
           Advances for construction                                             (5,286,281)     10,505,544 
              Net cash provided by operating activities                          85,053,492    120,984,837 
Cash used in investing activities:
  Additions to utility plant                                                    (67,002,521)    (60,774,397)
Cash provided by (used in) financing activities:
  Congressional appropriations                                                  125,566,027     161,173,238 
  Funds returned to U.S. Treasury                                              (138,536,376)   (124,315,915)
  Transfer to/from other Federal agencies                                        (3,913,763)      2,254,733 
  Hydropower water storage reallocation deferral                                 21,752,126              — 
  Funds held in escrow                                                            7,969,217     (16,508,544)
              Net cash provided by (used in) financing activities                12,837,231      22,603,512 
              Net increase in cash                                               30,888,202      82,813,952 
Cash at beginning of year                                                      208,531,459     125,717,507 
Cash at end of year                                                    $       239,419,661     208,531,459 


See accompanying notes to combined financial statements.




                                                      11
                                     SOUTHWESTERN FEDERAL POWER SYSTEM
                                          Combining Schedule of Cash Flows Data
                                               Year ended September 30, 2010


                                                                    Southwestern       Corps           Total
Cash provided by operating activities:
  Net revenues (deficit)                                        $     (25,400,989)     48,834,340      23,433,351 
  Adjustments to reconcile net revenues to net cash
     provided by (used in) operating activities:
        Revenue distributed to Corps                                 132,497,234     (132,497,234)             — 
        Depreciation and amortization                                 13,718,157       15,398,020      29,116,177 
        Benefit expense paid by other Federal agencies                 1,644,005        2,236,907       3,880,912 
        Interest expense on Federal investment and other               3,020,246       13,377,119      16,397,365 
        Allowance for funds used during construction                  (1,719,463)      (1,470,949)     (3,190,412)
        (Increase) decrease in assets:
           Accounts receivable                                         (3,569,891)        413,769      (3,156,122)
           Materials and supplies                                          80,085         221,739         301,824 
           Banking exchange receivables                                  (131,485)             —         (131,485)
           Deferred workers’ compensation                                 (10,071)      1,002,308         992,237 
           Other assets                                                 8,631,833              —        8,631,833 
        Increase (decrease) in liabilities:
           Accounts payable and accrued liabilities                      972,638       (3,091,780)     (2,119,142)
           Accrued workers’ compensation                                  77,286       (1,028,617)       (951,331)
           Purchased power and banking exchange deferral              17,134,566               —       17,134,566 
           Advances for construction                                  (5,286,281)              —       (5,286,281)
              Net cash provided by operating activities              141,657,870      (56,604,378)     85,053,492 
Cash used in investing activities:
  Additions to utility plant                                          (22,310,235)    (44,692,286)    (67,002,521)
Cash provided by (used in) financing activities:
  Congressional appropriations                                        13,076,000     112,490,027      125,566,027 
  Funds returned to U.S. Treasury                                   (132,053,955)     (6,482,421)    (138,536,376)
  Transfer to/from other Federal agencies                            (16,422,222)     12,508,459       (3,913,763)
  Hydropower water storage reallocation deferral                      21,752,126              —        21,752,126 
  Funds held in escrow                                                 5,000,346       2,968,871        7,969,217 
              Net cash used in financing activities                 (108,647,705)    121,484,936       12,837,231 
              Net increase in cash                                    10,699,930       20,188,272      30,888,202 
Cash at beginning of year                                             66,763,859     141,767,600     208,531,459 
Cash at end of year                                             $     77,463,789     161,955,872     239,419,661 


See accompanying notes to combined financial statements.




                                                           12
                                     SOUTHWESTERN FEDERAL POWER SYSTEM
                                          Combining Schedule of Cash Flows Data
                                               Year ended September 30, 2009


                                                                    Southwestern       Corps           Total
Cash provided by operating activities:
  Net revenues                                                  $       2,532,738      37,629,750      40,162,488 
  Adjustments to reconcile net revenues to net cash
     provided by (used in) operating activities:
        Revenue distributed to Corps                                 108,625,473     (108,625,473)             — 
        Depreciation and amortization                                 12,288,093       17,017,317      29,305,410 
        Benefit expense paid by other Federal agencies                 1,286,608        1,725,565       3,012,173 
        Interest expense on Federal investment and other               3,430,945       14,330,955      17,761,900 
        Allowance for funds used during construction                  (1,139,435)      (1,077,353)     (2,216,788)
        (Increase) decrease in assets:
           Accounts receivable                                          2,503,714        (314,806)      2,188,908 
           Materials and supplies                                          97,222              —           97,222 
           Banking exchange receivables                                   560,275              —          560,275 
           Deferred workers’ compensation                                  34,860         172,987         207,847 
           Other assets                                                (7,944,418)             —       (7,944,418)
        Increase (decrease) in liabilities:
           Accounts payable and accrued liabilities                     (688,295)       4,003,628       3,315,333 
           Accrued workers’ compensation                                 (61,002)        (175,261)       (236,263)
           Purchased power and banking exchange deferral              24,265,206               —       24,265,206 
           Advances for construction                                  10,505,544               —       10,505,544 
              Net cash provided by operating activities              156,297,528      (35,312,691)   120,984,837 
Cash used in investing activities:
  Additions to utility plant                                          (21,249,904)    (39,524,493)    (60,774,397)
Cash provided by (used in) financing activities:
  Congressional appropriations                                        46,144,000     115,029,238      161,173,238 
  Funds returned to U.S. Treasury                                   (119,830,463)     (4,485,452)    (124,315,915)
  Transfer to/from other Federal agencies                            (13,774,529)     16,029,262        2,254,733 
  Hydropower water storage reallocation deferral                              —               —                — 
  Funds held in escrow                                               (18,731,166)      2,222,622      (16,508,544)
              Net cash used in financing activities                 (106,192,158)    128,795,670       22,603,512 
              Net increase in cash                                    28,855,466       53,958,486      82,813,952 
Cash at beginning of year                                             37,908,393       87,809,114    125,717,507 
Cash at end of year                                             $     66,763,859     141,767,600     208,531,459 


See accompanying notes to combined financial statements.




                                                           13
                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                    Notes to Combined Financial Statements
                                         September 30, 2010 and 2009



(1)   Summary of Significant Accounting Policies
      (a)   General Information and Basis of Preparation of Financial Statements
            The Southwestern Federal Power System (SWFPS) financial statements combine all of the activities
            associated with the production, transmission, and disposition of all Federal power marketed by the
            Southwestern Power Administration (Southwestern), an agency of the U.S. Department of Energy
            (DOE). The accompanying combined financial statements include the accounts of Southwestern and
            the related hydroelectric generating facilities and power operations of the U.S. Army Corps of
            Engineers (Corps), an agency of the U.S. Department of Defense (DOD). Southwestern and the
            Corps are separately managed and financed and each maintains their own accounting records. For
            purposes of financial and operational reporting, the facilities and related operations of Southwestern
            and the Corps (power purpose) are combined as SWFPS.

            The Corps has constructed and operates hydroelectric generating facilities in the states of Arkansas,
            Missouri, Oklahoma, and Texas. Operating expenses and net assets of multi-purpose Corps projects
            are allocated to power and nonpower purposes (primarily irrigation, recreation, and flood control).
            Only the portion of such project costs and net assets allocated to power are included in the combined
            financial statements. Southwestern, as designated by the Secretary of Energy, transmits and markets
            power generated from these hydroelectric generating facilities.

            The SWFPS is subject to the accounting regulations of the Federal Energy Regulatory Commission
            (FERC). Accounts are maintained in accordance with accounting principles generally accepted in the
            United States of America (U.S. GAAP) as established by Financial Accounting Standards Board
            (FASB), the uniform system of accounts prescribed for electric utilities by the FERC, the accounting
            practices and standards established by the DOE and DOD, and the requirements of specific
            legislation and executive directives issued by government agencies. SWFPS’s combined financial
            statements follow the accounting and reporting guidance contained in FASB Accounting Standards
            Codification (ASC) Topic 980, Regulated Operations. Allocation of costs and revenues to
            accounting periods for rate-making and regulatory purposes may differ from bases generally applied
            by nonregulated companies. Such allocations to meet regulatory accounting requirements are
            considered to be U.S. GAAP for regulated utilities provided that there is a demonstrable ability to
            recover any deferred costs in future rates and such costs or revenues are accounted for as regulatory
            assets or liabilities.

      (b)   Confirmation and Approval of New Rates
            SWFPS is not a public utility within the jurisdiction of FERC under the Federal Power Act. Under a
            Delegation Order issued by the Secretary of Energy, the Administrator of Southwestern has the
            authority to develop power and transmission rates for the SWFPS. Such rates are approved on an
            interim basis by the Deputy Secretary of Energy. FERC has the exclusive authority to confirm,
            approve, and place into effect on a final basis, to remand, or to disapprove, rates developed by the
            Administrator.

            FERC’s review is limited to: 1) whether the rates are the lowest possible consistent with sound
            business principles; 2) whether the revenue levels generated are sufficient to recover the costs of
            producing and transmitting electric energy including repayment within the period permitted by law;

                                                      14                                              (Continued)
                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2010 and 2009



      and 3) the assumptions and projections used in developing the rates component. FERC shall reject
      decisions of the Administrator only if it finds them to be arbitrary, capricious, or in violation of the
      law.

      The rates in effect as of September 30, 2010 are summarized as follows:

      The Integrated System rate schedules were placed into effect January 1, 2010 and were approved on
      a final basis by the FERC on October 4, 2010. These rate schedules incorporated a 10.8% revenue
      increase and remain in effect through September 30, 2013.

      The Robert D. Willis project rate required no rate action during fiscal year (FY) 2010. The Robert D.
      Willis project rate was approved and confirmed by the FERC on April 27, 2009, for the period
      October 1, 2008 through September 30, 2012. The Sam Rayburn Dam project rate required no rate
      action during FY 2009. The current rate in effect from January 1, 2009 through September 30, 2012
      was confirmed and approved by the FERC on the final basis March 30, 2009.

(c)   Utility Plant and Depreciation
      Utility plant includes items such as dams, spillways, generators, turbines, substations and related
      components (generating facilities), and transmission lines and related components. Utility plant is
      stated at original cost. Property transferred from other government agencies is transferred at net book
      value. Cost includes direct labor and material, payments to contractors, indirect charges for
      engineering, supervision and similar overhead items, and an allowance for funds used during
      construction. The costs of additions and betterments are capitalized. Repairs and minor replacements
      are charged to operation and maintenance expense. Generally, the cost of utility plant retired,
      together with removal costs less salvage, is charged to accumulated depreciation when the property
      is removed from service. Gains and losses are recognized only on sales of significant identifiable
      assets.

      Depreciation on utility plant is computed on a straight-line basis over the estimated service lives of
      the various classes of property. Service lives currently range from 5 to 100 years for transmission
      plant and generating facility components.

(d)   Cash and Funds Held in Escrow
      Cash represents the unexpended balance of funds authorized by Congress, customer advances, and
      spectrum relocation funds, held at the U.S. Department of the Treasury (Treasury). Cash received
      from the sale of power is generally deposited directly with the Treasury and is reflected as “Funds
      returned to U.S. Treasury” in the accompanying combined financial statements. Cash held for
      customer advances is restricted for the purposes agreed to between Southwestern and the customer.

      Funds held in escrow represents the unexpended balance of funds held in a bank trust account under
      agreements with certain customers restricted specifically to fund operation, maintenance,
      rehabilitation, and modernization activities at hydroelectric generating facilities of the Corps in
      SWFPS’s marketing region. Under the agreements, funds deposited to the escrow account by
      customers are credited by Southwestern against accounts receivable for power and energy sold to the
      customer. The escrowed funds are transferred to the Corps, as needed, to meet contractual

                                                 15                                               (Continued)
                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2010 and 2009



      obligations as outlined in the agreements. Unused funds held in escrow, if any, will be returned to
      Southwestern and then to the Treasury upon termination of the agreements.

(e)   Congressional Appropriations
      Southwestern and the Corps receive Congressional Appropriations through DOE and DOD,
      respectively, to finance their operations. The Corps also receives appropriations to finance
      construction of its hydroelectric projects. In accordance with the Flood Control Act of 1944
      (the Flood Control Act), Southwestern is responsible for repayment to the Federal government, with
      interest, of its appropriations, and the portion of Congressional Appropriations allocated to the Corps
      for construction and operations of the power projects.

      Congressional Appropriations received by the Corps are authorized and allocated to individual
      projects on a total project basis. These total project allocations are further distributed between power
      and nonpower purposes at the discretion of the Corps project management. Power purpose
      allocations may vary from actual amounts expended during the year. It is the intent of the Corps’
      project management to distribute Congressional Appropriations in amounts approximating estimated
      current year expenses and to adjust the distribution as necessary within the limits of the transfer
      authority residing at the district level.

(f)   Purchased Power and Banking Exchange Deferral and Receivable
      SWFPS utilizes a separate rate component (purchased power adder) to recover the estimated cost of
      purchased power based upon the average purchased power costs expected to occur in the future. If
      the actual expenses of purchased power exceed the revenue generated from this adder, the cost is
      deferred for future recovery through rates. Likewise, if the expense is less than the adder, the excess
      revenue is deferred. From time to time, Southwestern may utilize a separate rate component (adder
      adjustment), to manage additional purchased power expenses or excess revenues, respectively.

      SWFPS has arrangements with certain customers in which excess power available on the power
      system is banked with the customer until needed by the power system and the customer has power
      available. The power system records a receivable for the power banked at the cost specified in the
      marketing arrangement, under the provisions of ASC Topic 845, Nonmonetary Transactions. The net
      revenue or expense associated with banking activity is deferred until the power is returned or
      delivered.

(g)   Operating Revenues
      Operating revenues are recorded on the basis of service rendered. Rates are established under
      requirements of the Flood Control Act, related legislation and executive departmental directives, and
      are to provide sufficient revenues to meet all required repayment of system costs, including operation
      and maintenance expenses less depreciation, interest, and payment to the Treasury for the Federal
      investment in utility plant. Rates are intended to provide for recovery of the Federal investment in
      transmission and generating facilities not to exceed 50 years from the date placed in service, while
      operation and maintenance costs and interest on Federal investment are intended to be recovered
      annually.


                                                 16                                               (Continued)
                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                   September 30, 2010 and 2009



      As set forth in “Utility Plant, and Depreciation” above, assets are being depreciated for financial
      reporting purposes using the straight-line method over their estimated service lives, which currently
      range from 5 to 100 years for transmission and generating facility components. Accordingly, annual
      depreciation charges are not matched with the recovery of the related capital costs and will, in the
      case of generating facilities, continue beyond the period within which such costs will have been
      recovered through rates.

      While energy and transmission rates are established to recover the costs of operating the power
      projects, rates are also required to be at the lowest possible level, consistent with sound business
      principles. Over the life of the power system, accumulated net revenues represent differences
      between the timing of the recognition of expenses and related revenues, resulting primarily from the
      difference between the recognition of depreciation and the related recovery of the Treasury’s
      investment in utility plant. SWFPS is a Federal entity, thus at any given time the accumulated net
      revenues, to the extent available, are committed to the repayment of the Federal investments.

      The practices followed by Southwestern and the Corps are in conformity with the accounting
      practices and standards established by DOE and DOD and the requirements of specific legislation
      and executive directives issued by government agencies. Based upon guidelines established in DOE
      Order RA 6120.2, revenues distributed to the Corps cover annual operating expenses including
      interest, with the remainder applied to the unpaid generation investment.

(h)   Accounts Receivable
      SWFPS’s accounts receivable consist generally of receivables for power and energy sold to its
      customers who are primarily public bodies and cooperatives. SWFPS provides for uncollectible
      accounts if collection is in doubt. No allowance for uncollectible accounts was considered necessary
      for any year presented herein.

      Financial instruments, which potentially subject SWFPS to credit risk, include accounts receivable
      for customer purchases of power, transmission, or other products and services. These receivables are
      primarily with a group of diverse customers that are generally stable, and established organizations,
      which do not represent a significant credit risk. Although SWFPS is affected by the business
      environment of the utility industry, management does not believe a significant risk of loss from a
      concentration of credit exists.

(i)   Interest on Federal Investment
      Interest on repayable Federal investment is a cost mandated by the Secretary of Energy and by the
      FERC. SWFPS computes interest in accordance with DOE Order RA 6120.2, which provides that
      interest be computed on the remaining investment after revenues have been applied to recovery of
      costs during the year, any prior year unpaid costs, and then to Federal investment bearing the highest
      interest rate.

(j)   Allowance for Funds Used During Construction (AFUDC)
      The FERC Uniform System of Accounts defines AFUDC as the net costs for the period of
      construction of borrowed funds used for construction purposes and a reasonable rate on other funds
      when so used. While cash is not realized currently from this allowance, it is realized under the rate
                                                17                                              (Continued)
                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2010 and 2009



      making process over the repayment life of the related property through increased revenues resulting
      from a higher recoverable investment. The interest rates used are established by law, administrative
      order, or administrative policy for the fiscal year during which the construction commenced (4.000%
      for FY 2010 and 4.500% for FY 2009).

(k)   Retirement Benefits
      SWFPS employees participate in one of the following contributory defined benefit plans: the Civil
      Service Retirement System (CSRS) or Federal Employees Retirement System (FERS). Agency
      contributions are based on eligible employee compensation and are submitted to benefit program
      trust funds administered by the Office of Personnel Management (OPM). Based on statutory
      contribution rates, the FY 2010 and FY 2009 cost factors under CSRS were 30.1% and 25.8%,
      respectively, of basic pay. The cost factor under FERS was 13.8% of basic pay for FY 2010 and
      12.3% of basic pay for FY 2009. The contribution levels, however, are legislatively mandated and do
      not reflect the current full cost requirements to fund the plans. Other retirement benefits administered
      by the OPM include the Federal Employees Health Benefits Program which costs $5,906 and $5,756,
      per enrolled employee, for FY 2010 and FY 2009, respectively, and the Federal Employees Group
      Life Insurance Program which had a FY 2010 cost factor of 0.02% of basic pay, the same as for FY
      2009.

      In addition to the amounts contributed to the CSRS and FERS as stated above, SWFPS recorded an
      expense and related liability for the pension and other postretirement benefits in the combined
      financial statements of $3,880,912 and $3,012,173 for the years ended September 30, 2010 and
      2009, respectively. This amount reflects the contribution made on behalf of SWFPS by OPM to the
      benefit program trust funds.

      As a Federal agency, all post-retirement activity is managed by OPM, therefore, neither the assets of
      the plans nor the actuarial data with respect to the accumulated plan benefits relative to Southwestern
      and the Corps employees are included in this report.

(l)   Workers’ Compensation
      Workers’ compensation consists of two elements: actuarial liability associated with workers’
      compensation cases incurred for which additional claims may still be made in the future (future
      claims) and a liability for expenses associated with actual claims incurred and paid by the
      Department of Labor (DOL), the program administrator, whom SWFPS must reimburse. DOL, DOE,
      and DOD determined Southwestern and the Corps actuarial liability associated with workers’
      compensation cases. The actuarial liability for future claims was determined using historical benefit
      payment patterns and the Treasury discount rates.

      The recovery of these future claims will be deferred for purposes of the rate-making process until
      such time as the future claims are actually submitted and paid by the DOL. Therefore, the
      recognition of the expense associated with this actuarially determined liability has been recorded as
      deferred workers’ compensation in the combined balance sheets in accordance with ASC Topic 980
      to reflect the effects of the rate-making process.



                                                 18                                               (Continued)
                      SOUTHWESTERN FEDERAL POWER SYSTEM
                             Notes to Combined Financial Statements
                                   September 30, 2010 and 2009



(m)   Income Taxes
      As agencies of the U.S. Government, Southwestern and the Corps are exempt from all income taxes
      imposed by any governing body, whether it is a Federal, state, or commonwealth of the United
      States.

(n)   Use of Estimates
      The preparation of the combined financial statements in conformity with U.S. GAAP requires
      management of SWFPS to make estimates and assumptions that affect the reported amounts of assets
      and liabilities, the disclosure of contingent assets and liabilities at the date of the financial
      statements, and the reported amounts of revenues and expenses during the reporting period.
      Significant items subject to such estimates and assumptions include the useful lives of completed
      utility plant; allowances for doubtful accounts; employee benefit obligations; and other
      contingencies. Actual results could differ from those estimates.

(o)   Denison Hydropower Water Storage Reallocation
      Section 838 of P.L. 99-662 (Section 838) authorized the Corps of Engineers to reallocate
      hydropower storage to water supply storage at Lake Texoma, in increments as needed, up to 150,000
      acre-feet for users in the State of Texas and up to 150,000 acre-feet for users in the State of
      Oklahoma. Section 838 directed that the Corps would provide credits to Southwestern equal to the
      replacement cost of the hydropower lost as a result of the reallocations, and Southwestern would
      reimburse the preference customers (Denison allottees) for an amount equal to the customers’
      replacement cost of the hydropower lost as a result of the reallocations.

      In FY 2010, the Corps executed water supply contracts for the 150,000 acre-feet of storage
      authorized for customers in the State of Texas by Section 838. According to a June 2010 agreement
      between Southwestern and the Corps, the Corps agreed to deposit all cost of storage payments for
      storage reallocated under Section 838 into the U.S. Treasury and to provide credits in the same
      amount to the hydropower income account. During FY 2010, the Corps received $21,611,724 in
      payments for the reallocated water supply storage and credited the total amount to Southwestern. The
      total amount was deferred by Southwestern for the provision of the reimbursement to the Denison
      allottees’ and Southwestern for future hydropower storage revenues foregone.

      A September 2010 agreement between Southwestern and the Denison allottees provided the initial
      hydropower replacement cost as determined by Southwestern and the methodology for providing the
      reimbursement to the Denison allottees as authorized under Section 838. Beginning with the invoice
      for the October 2010 service month, reimbursement pursuant to Section 838 began as a credit on the
      Denison allottees monthly invoices.

(p)   Nonreimbursable Activities
      Federal and Non-Federal Projects
      Southwestern has agreements with customers to provide services on a fee basis where the fee is
      generally paid in advance. The operating revenues and expenses related to these services are
      excluded from the rate-making process, a portion of which is accounted for on a net basis. A portion

                                                19                                            (Continued)
                SOUTHWESTERN FEDERAL POWER SYSTEM
                       Notes to Combined Financial Statements
                             September 30, 2010 and 2009



of cash and advances from construction in the accompanying combined financial statements relate to
these activities.

Escrow Interest Revenue
Interest revenue represents the interest earned on funds held in escrow. These funds are authorized
specifically to fund operation, maintenance, rehabilitation, and modernization activities at
hydroelectric generating facilities of the Corps in SWFPS’s marketing region. This activity is not
reimbursable through the rate-making process.

White River Minimum Flows Project
Section 132 of P.L. 109-103 (Section 132) authorized the Corps of Engineers to implement the
White River Minimum Flows Project at the Federal Bull Shoals and Norfork projects in Arkansas.
The legislation directed Southwestern to determine the hydropower impacts to the Federal projects
and to Federal Energy Regulatory Commission (FERC) Project No. 2221 resulting from the
implementation of minimum flows. Section 132 provided that all Federal costs for the White River
Minimum Flows Project be considered nonreimbursable.

Southwestern determined the Federal and non-Federal hydropower impacts through an extensive
public process. Additionally, as directed in Section 132, the non-Federal hydropower impacts on
FERC Project No. 2221 were determined in consultation with the project licensee and the relevant
state public utility commissions. Throughout the entire process, the administrative costs incurred
during Southwestern’s determination of the Federal and non-Federal hydropower impacts of the
White River Minimum Flows Project were accounted for and were considered nonreimbursable.

In October 2009, Section 314 of P.L. 111-85 (Section 314) amended the Section 132 language by
authorizing the establishment of a Special Receipts and Disbursement Account (Special Account)
and providing that Southwestern would provide the compensation to the non-Federal licensee of
FERC Project No. 2221 using receipts collected in the Special Account. According to the legislation,
such payment shall be considered nonreimbursable. Further, Section 314 also established the date of
implementation for the minimum flows project to be October 28, 2009. Accordingly, when
Southwestern’s determination of the non-Federal hydropower impacts was finalized in June 2010,
Southwestern began collecting receipts in the Special Account and provided full compensation of
$26,563,700, as non reimbursable expense, to the non-Federal licensee in September 2010.

Section 132 provided that losses to Federal hydropower shall be offset by a reduction in the costs
allocated to the Federal hydropower purpose, and the reduction shall be based on the future lifetime
impacts of the minimum flows project. As determined by Southwestern, the offset will take into
account the multiple impacts of minimum flows on Federal hydropower. Those impacts include lost
on-peak energy and capacity, lost off-peak energy, increased costs due to dissolved oxygen impacts,
and increased maintenance costs at Bull Shoals.

Spectrum Relocation Fund
In December 2004, the U.S. Congress passed and the President signed the Commercial Spectrum
Enhancement Act (CSEA, Title II of P.L. 108-494), creating the Spectrum Relocation Fund (SRF) to
streamline the relocation of Federal systems from existing spectrum bands to accommodate
                                          20                                            (Continued)
                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                   September 30, 2010 and 2009



      commercial use by facilitating reimbursement to affected agencies of relocation costs. In FY 2009
      and FY 2007 Southwestern received $17,730,000 and $8,091,360, respectively, in spectrum
      relocation funds, as approved by the Office of Management and Budget, and as reported to the
      Congress. This activity is not reimbursable through the rate-making process.

      Global Climate Change Project
      Section 9505 of the Secure Water Act of 2009 (Public Law 111-11) directed the Secretary of Energy
      (DOE), in consultation with the Federal Power Marketing Administrations (PMAs), to submit a
      Report to Congress on the effects of global climate change on federal hydropower systems.
      Southwestern has participated in the global climate change assessment and development of the
      Report to Congress. In accordance with Public Law 111-11, any costs incurred by PMAs for this
      effort are to be nonreimbursable.

      The components of non reimbursable activity in each of the years are as follows:
                                                                         FY 2010              FY 2009
      Operating revenues:
        Non reimbursable
        Federal project revenue                                    $        403,598              612,934   
        Interest revenue                                                     49,431              185,896   
                    Total non reimbursable revenues                $        453,029              798,830   
      Operating expenses:
        Non reimbursable
        Federal project expense                                    $        403,598              612,934   
        White River Minimum Flows compensation and
           administrative expense                                        26,749,718              324,965   
        Spectrum Relocation Fund expense                                    194,103              362,819   
        Global Climate project expense                                        3,458   
                    Total non reimbursable expenses                $     27,350,877            1,300,718   


(q)   Derivative and Hedging Activities
      Southwestern analyzes derivative financial instruments under FASB ASC Topic 815, Derivatives
      and Hedging. This standard requires that all derivative instruments, as defined by ASC Topic 815, be
      recorded on the combined balance sheets at fair value, unless exempted. Changes in a derivative
      instrument’s fair value must be recognized currently in the combined statement of revenues and
      expenses, unless the derivative has been designated in a qualifying hedging relationship. The
      application of hedge accounting allows a derivative instrument’s gains and losses to offset related
      results of the hedged item in the combined statements of revenues and expenses to the extent
      effective. ASC Topic 815 requires that the hedging relationship be highly effective and that an
      organization formally designate a hedging relationship at the inception of the contract to apply hedge
      accounting.


                                                21                                              (Continued)
                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2010 and 2009



      Southwestern enters into contracts for the sale of electricity for use in its business operations. ASC
      Topic 815 requires Southwestern to evaluate these contracts to determine whether the contracts are
      derivatives. Certain contracts that literally meet the definition of a derivative may be exempted from
      ASC Topic 815 as normal purchases or normal sales. Normal purchases and sales are contracts that
      provide for the purchase or sale of something other than a financial instrument or derivative
      instrument that will be delivered in quantities expected to be used or old over a reasonable period in
      the normal course of business. Contracts that meet the requirements of normal purchases or sales are
      documented and exempted from the accounting and reporting requirements of ASC Topic 815.

      Southwestern’s policy is to fulfill all derivative and hedging contracts by providing power to a third
      party as provided for in each contract. Southwestern’s policy does not authorize the use of derivative
      or hedging instruments for speculative purposes such as hedging electricity pricing fluctuations
      beyond Southwestern’s estimated capacity to deliver power. Accordingly, Southwestern evaluates all
      of its contracts to determine if they are derivatives and, if applicable, to ensure that they qualify and
      meet the normal purchases and normal sales designation requirements under ASC Topic 815.
      Normal sales contracts are accounted for as executory contracts as required under U.S. GAAP. As of
      September 30, 2010 and 2009, Southwestern has no contracts accounted for as derivatives.

(r)   Fair Value of Financial Instruments
      In April 2009, the FASB issued an update to FASB ASC Topic 825, Financial Instruments. The
      update to ASC Topic 825 requires disclosure of the fair value of financial instruments, and was
      effective for SWFPS in fiscal year 2009. Fair value estimation methods for individual classes of
      financial instruments are described below.

(s)   Short-Term Financial Instruments
      The carrying (recorded) value of short-term financial instruments, including cash, funds held in
      escrow, accounts receivable, accounts payable and accrued liabilities, and advances for construction,
      approximates the fair value of these instruments. The fair value of certain unfunded and actuarially
      based liabilities cannot be determined as the future payout dates have yet to be determined.




                                                  22                                               (Continued)
                               SOUTHWESTERN FEDERAL POWER SYSTEM
                                      Notes to Combined Financial Statements
                                           September 30, 2010 and 2009



(2)   Utility Plant
      Plant in service and construction work in progress consist principally of generating and transmission
      facilities as follows:
                                                                                    2010           2009
      Plant in service:
         Generating facilities                                            $ 1,079,073,181     1,068,912,690
         Transmission facilities                                              298,976,824       280,587,206
                                                                              1,378,050,005   1,349,499,896
      Less accumulated depreciation                                           (622,697,039)   (608,686,560)
      Construction work in progress:
        Generating facilities                                                  119,999,890      85,856,699
        Transmission facilities                                                 19,153,942      26,760,007
                                                                               139,153,832     112,616,706
                      Net utility plant                                   $    894,506,798     853,430,042


(3)   Regulatory Assets and Liabilities
      Regulatory assets and liabilities at September 30 consist of the following:
                                                                                    2010          2009
      Regulatory assets:
        Deferred workers’ compensation                                    $     15,687,514      16,679,751
                      Total                                               $     15,687,514      16,679,751
      Regulatory liabilities:
        Hydropower water storage reallocation deferral                    $     21,752,126              —
        Purchased power and banking exchange deferral                           47,832,866      30,698,300
                      Total                                               $     69,584,992      30,698,300




                                                       23                                          (Continued)
                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                    Notes to Combined Financial Statements
                                          September 30, 2010 and 2009



      Southwestern’s purchased power and banking exchange deferral account represents the deferral of net
      revenue or expenses associated with net purchased power and banking exchange activities as follows:
                                                                                                  Purchased
                                                                                                    power
                                                                                                 and banking
                                                                                                  exchange
                                                                                                   deferral
      September 30, 2008                                                                     $     (6,433,094)
      Purchased power adder revenue                                                               (25,135,057)
      Purchased power expense                                                                       1,480,275
      Net banking exchange                                                                              6,998
                   Net purchased power and banking exchange deferral                              (23,647,784)
      Interest on deferred activities and other                                                      (617,422)
      September 30, 2009                                                                          (30,698,300)
      Purchased power adder revenue                                                               (17,988,721)
      Purchased power expense                                                                       2,407,192
      Net banking exchange                                                                            (98,253)
                   Net purchased power and banking exchange deferral                              (15,679,782)
      Interest on deferred activities and other                                                    (1,454,784)
      September 30, 2010                                                                     $    (47,832,866)


      The deferred workers’ compensation represents a regulatory asset that will be expensed as future claims
      are actually submitted and paid by the DOL (see note l (l)).

(4)   Financing Sources
      SWFPS’s financing sources include annual appropriations, Federal power receipts (Use of Receipts) and
      alternative financing arrangements to fund its operations.

      (a)   Federal Investment
            Construction and operation of Southwestern’s transmission system and the Corps generating
            facilities and operations are financed through Congressional Appropriations. The exceptions are
            capital assets and maintenance activities funded through the alternative financing arrangements and
            the funding by non-Federal parties of the construction of the Robert Douglas Willis project. The
            U.S. Government’s investment in each generating project and each year’s investment in the
            transmission system is to be repaid to the Treasury over a period not to exceed 50 years from the
            time the facility is placed in service. There is no requirement for repayment of a specific amount on
            an annual basis.



                                                      24                                             (Continued)
                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                    Notes to Combined Financial Statements
                                          September 30, 2010 and 2009



            Revenues received from the sale of Federal power and purchased power are generally deposited with
            the Treasury. Annual revenues are first applied to the current year operating expenses (less
            depreciation) and interest expense. All annual amounts for such expenses have been paid through
            fiscal year 2010. Remaining revenues are to be first applied to repayment of operating deficits
            (which include all expenses except depreciation), if any, and then to repayment of the Federal
            investment. To the extent possible, while still complying with the repayment period established for
            each increment of investment and unless otherwise required by legislation, repayment of the
            investment is to be accomplished by a repayment of the highest interest-bearing investment first.
            Interest rates applied to the unamortized initial investment of the U.S. Government in the Corps’
            hydroelectric generating facilities range from 2.50% to 5.75% for unpaid facilities in service prior to
            FY 2010 and 4.00% for facilities placed in service during FY 2010. The rates have been set by law,
            by administrative order pursuant to law, or by administrative policies using the U.S. Senate
            Document No. 97 formula for the fiscal year during which the appropriations were requested.

      (b)   Alternative Financing
            Due to fluctuations in the amount of annual appropriations received to fund operations, maintenance,
            rehabilitation, and modernization of the SWFPS facilities, SWFPS has established an alternative
            financing program under reimbursable authority regulations. Under agreements with customers to
            finance projects, which benefit the SWFPS, funds received from the sale of power are net billed,
            allowing a portion of the funds to be utilized to finance agreed-upon projects rather than returned to
            the Treasury. Under the agreements with certain customers, alternative financing restricted
            specifically to fund operation, maintenance, rehabilitation, and modernization activities at the
            hydroelectric generating facilities are held in escrow. All other alternative financing arrangements
            are collected by Southwestern and deposited as cash held by the Treasury, and are reflected as other
            assets with an offsetting liability included in Advances for Construction, until completion of the
            project at which time the asset and liability are eliminated.

(5)   Commitments and Contingencies
      (a)   General
            Based on the 2010 Integrated System Power Repayment Study prepared as of September 30, 2010,
            the projected increase in capital investment in 2010 is $104,115,864, which includes $17,246,501 for
            transmission facilities and $86,869,363 for generating facilities. The five-year investment increase
            projected in the 2010 Integrated System Power Repayment Study for FY 2010 through FY 2014 is
            estimated to cost $590,948,013.

            Southwestern sells the majority of its marketable power to customers under long-term power sales
            contracts of 15 years, which require Southwestern to provide 1,200 kilowatt hours per kilowatt of
            peaking contract demand per year, subject to scheduling constraints outlined in each customer’s
            contract. If sufficient power is unavailable to Southwestern from Corps hydroelectric facilities to
            meet these commitments, Southwestern may be required to purchase power from other sources to
            meet these commitments. The cost to purchase such power is recovered through the purchased power
            adder discussed more fully in note 1(f).



                                                       25                                              (Continued)
                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                   Notes to Combined Financial Statements
                                         September 30, 2010 and 2009



      (b)   Legal
            SWFPS has exposure to certain claims and legal actions arising in the ordinary course of business. In
            management’s opinion, any resulting actions will not have a material adverse effect on the financial
            condition or results of operations of SWFPS during FY 2009 through FY 2010.

(6)   Leases
      SWFPS is obligated under a 10-year operating lease for office space. This lease consists of a 5-year firm
      term for the first 5-years and the option to terminate during the second 5-year term. This lease commenced
      January 1, 2004 and is scheduled to terminate December 31, 2013. Future minimum lease payments as of
      September 30, 2010 are as follows:
                          Year ending September 30:
                            2011                                         $        656,000
                            2012                                                  672,000
                            2013                                                  679,000
                            2014                                                  174,000
                                        Total future minimum lease
                                          payments                       $      2,181,000


      Rent expense for operating leases during the years ended September 30, 2010 and 2009 was $691,000 and
      $671,000, respectively.

(7)   Subsequent Events
      SWFPS has evaluated subsequent events from the balance sheet date through October 31, 2011, the date at
      which the financial statements were available to be issued, and such events are disclosed in these
      accompanying notes.




                                                      26
SOUTHWESTERN POWER ADMINISTRATION
   Internal Control over Financial Reporting
        September 30, 2010 and 2009
                                KPMG LLP
                                Suite 310
                                100 West Fifth Street
                                Tulsa, OK 74103




       Independent Auditor’s Report on Internal Control Over Financial Reporting
           Based on an Audit of Combined Financial Statements Performed in
                   Accordance With Government Auditing Standards


Administrator, Southwestern Power Administration and
The Inspector General, U.S. Department of Energy:

We have audited the combined balance sheets of the Southwestern Federal Power System
(SWFPS) as of September 30, 2010 and 2009, and the related combined statements of changes in
net Federal investment, revenues and expenses, changes in capitalization, and cash flows for the
years then ended, and have issued our report thereon dated June 18, 2012. The combined
financial statement presentation includes the hydroelectric power generating functions operated
by the U.S. Army Corps of Engineers (hereinafter referred to as the generating agency or the
Corps), for which Southwestern Power Administration (Southwestern) markets and transmits
power. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.

Managements of Southwestern and the generating agency are responsible for establishing and
maintaining effective internal control over financial reporting. In planning and performing our
audit, we considered SWFPS’s internal control over financial reporting as a basis for designing
our auditing procedures for the purpose of expressing our opinion on the combined financial
statements, but not for the purpose of expressing an opinion on the effectiveness of
Southwestern and the generating agency’s internal control over financial reporting. Accordingly,
we do not express an opinion on the effectiveness of Southwestern and the generating agency’s
internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and was not designed to identify all deficiencies in internal
control over financial reporting that might be significant deficiencies or material weaknesses and
therefore, there can be no assurance that all deficiencies, significant deficiencies, or material
weaknesses have been identified. However, as discussed below, we identified certain
deficiencies in internal control over financial reporting that we consider to be material
weaknesses and other deficiencies we consider to be significant deficiencies.

A deficiency in internal control over financial reporting exists when the design or operation of a
control does not allow management or employees, in the normal course of performing their
assigned functions, to prevent, or detect and correct misstatements on a timely basis. A material
weakness is a deficiency, or combination of deficiencies, in internal control over financial
reporting, such that there is a reasonable possibility that a material misstatement of the entity’s
financial statements will not be prevented, or detected and corrected on a timely basis. We




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Administrator, Southwestern Power Administration and
The Inspector General, U.S. Department of Energy:
June 18, 2012
Page 2 of 6

consider the deficiencies in Southwestern and the generating agency’s internal control over
financial reporting described in the following schedule of findings and responses to be material
weaknesses. We previously identified the following deficiencies in Southwestern and the
generating agency’s internal control over financial reporting and considered them to be material
weaknesses as reported in the Independent Auditor’s Report on Internal Control Over Financial
Reporting Based on an Audit of Combined Financial Statements Performed in Accordance With
Government Auditing Standards dated December 16, 2011, which date is subsequent to the
September 30, 2010 audit that this letter pertains to.

The responses to the findings identified in our audit provided by Southwestern and the Corps are
presented below. We did not audit these responses, and, accordingly, we express no opinion on
them.

A. Material Weakness in Internal Control over Utility Plant
    The combined financial statements include the hydroelectric power generating functions of
    the U.S. Army Corps of Engineers (Corps), for which Southwestern markets and transmits
    power. Southwestern maintains the responsibility of preparing the combined financial
    statements and related footnotes in accordance with DOE Order RA 6120.2, dated
    September 20, 1979.

    Southwestern owns and maintains over 1,400 miles of high voltage transmission lines,
    substations and communication sites. Southwestern and the Corps own and operate more
    than $850 million of utility plant, net of accumulated depreciation, and more than
    $110 million of construction work in progress (CWIP). Southwestern and the generating
    agency are responsible for properly accounting for property, plant, and equipment, including
    additions, assigning useful lives, and classifying acquisitions into asset categories.

    During our test work over the combined financial statements, we identified the following
    conditions:

    •   We identified one exception at the Fort Worth Army Corps of Engineers district in 2008,
        where the Corps made changes on a retrospective basis to the useful lives of various
        assets, which created a cumulative catch up entry in CEFMS. The impact of this entry
        was made by the Corps against the general ledger accounts for beginning status of cost
        recovery and accumulated depreciation. This resulted in approximately $3.6 million of a
        difference between the 2007 year end net federal investment and the 2008 beginning
        balance of net federal investment.

    •   We identified one exception at the Little Rock district where the Norfork bridge assets
        were carried at the cost allocation percentage of 10.50%, however the accumulated
        depreciation and depreciation expense was calculated using the Norfork cost allocation
        percentage of 29.04%. This resulted in an overstatement of depreciation expense and
Administrator, Southwestern Power Administration and
The Inspector General, U.S. Department of Energy:
June 18, 2012
Page 3 of 6

       accumulated depreciation. We discussed this with the Little Rock Corps personnel, and
       agreed that the accumulated depreciation and related depreciation expense should be
       calculated using the same cost allocation percentage as the related assets.

   •   We identified one exception at the Little Rock Corps District where the district had an
       adjustment in 2008 to Plant in Service (PIS) and Accumulated Depreciation of
       approximately $10 million. These assets and related depreciation had been erroneously
       left off of the power reports in the prior year. As the amount were corrected in 2008,
       KPMG did not propose an adjustment to the power reports in the prior years, as the
       amounts resulted in a gross down of the balance sheet. KPMG notes that the Little Rock
       Corps District does not have appropriate procedures in place to accurately reconcile their
       Plant in Service and Accumulated Depreciation accounts.

   •   We identified one exception at the Vicksburg Corps District where a generator rewind at
       Blakely was initially identified as a repair project beginning in 2007 and the Corps
       initially expensed approximately $6 million related the project from 2007 to 2009.
       KPMG identified the error and adjusting entries were made to the 2007, 2008, and 2009
       combined financial statements to properly capitalize the assets.

Recommendations
We recommend that the Corps perform the following:

1. Regarding the capitalization versus expensing of costs, we recommend that management
   perform the following:

   a. Work with the various U.S. Army Corps of Engineers Districts to improve its internal
      controls and management review procedures to ensure that costs are properly accounted
      for.

   b. Key Corps personnel at the U.S. Army Corps of Engineers Districts should obtain
      training over the purpose, presentation and reporting requirements of the Corps
      hydroelectric power generation function to gain a better understanding of the overall
      effect of Corps data within SWFPS’s combined financial statements.

2. Regarding the accounting for Utility Plant assets, we recommend the following:

   a. The U.S. Army Corps of Engineers Districts should establish a consistent set of policies,
      procedures, internal controls and management review procedures to ensure that changes
      related to the useful lives of assets are accounted for on a prospective basis.

   b. The U.S. Army Corps of Engineers Districts should improve its internal controls and
      management review procedures to ensure that allocation procedures are accurately
      applied to the financial statements.
Administrator, Southwestern Power Administration and
The Inspector General, U.S. Department of Energy:
June 18, 2012
Page 4 of 6

   c. The U.S. Army Corps of Engineers Districts should improve its internal controls and
      management review procedures to ensure that accounts are properly reconciled and
      reviewed so that variances from the prior year and current year are properly identified
      and accounted for.

   d. Key Corps personnel at the U.S. Army Corps of Engineer Districts should obtain
      training over the purpose, presentation and reporting requirements of the Corps
      hydroelectric power generation function to gain a better understanding of the overall
      effect of Corps data within SWFPS’s combined financial statements.

Management’s Response
U.S. Army Corps of Engineers Management agrees with the findings and recommendations
related to the internal control over utility plant and will implement the necessary actions by
June 30, 2012.

B. Material Weakness in Internal Control over Accounting Policies and Procedures
   During our test work over the combined financial statements, we identified instances where
   Southwestern or the generating agency did not maintain sufficient accounting policies and
   procedures, did not effectively implement accounting policies and procedures, or the
   established accounting policies and procedures were not consistent with U.S. GAAP or DOE
   and FERC regulations. We identified the following conditions:

   •   Southwestern does not have appropriate processes in place to appropriately account for
       the Alternative Financing received from customers in order to provide funding for the
       U.S. Army Corps of Engineers. Southwestern had originally accounted for all funds
       received as transfers to other agencies, rather than considering the effect of funds that
       were held in bank trust accounts and had not been distributed to the various Corps
       Districts. A correcting adjustment was made by Southwestern to reclassify the funds
       held in escrow at the Liberty Bank of Arkansas to Funds Held in Escrow on the
       combined financial statements to properly state the balances.

   •   The Vicksburg Corps District does not have appropriate procedures in place to properly
       account for funding received through Alternative Financing. Funding received since the
       inception of the program, and the use of such funds has been omitted from the power
       reports. A correcting adjustment was made to properly state the PIS, Funds Held with
       Treasury, and Transfer from Other Agencies balances for 2006 – 2009.

   •   The Tulsa Corps District does not have procedures in place to properly account for
       Interest on Federal Investment. KPMG identified $2.3 million of interest expense related
       to a nonpower purpose code that had been capitalized to the power purpose Interest on
       Federal Investment account. A correcting adjustment was made by Southwestern to
       properly state the balance in the combined financial statements.
Administrator, Southwestern Power Administration and
The Inspector General, U.S. Department of Energy:
June 18, 2012
Page 5 of 6


   •   The Little Rock Corps District does not have appropriate procedures in place to properly
       accrue for accounts payable at year end. KPMG identified $2.8 million of CWIP
       expenditures that had not been accrued for at September 30, 2009 at Norfork and
       $1.4 million of CWIP items that had not been accrued for at September 30, 2008 at
       Ozark. A correcting adjustment was made by Southwestern to properly state the
       accounts payable balance in the combined financial statements.

   •   The Little Rock Corps District does not perform an annual rollforward of Congressional
       Appropriations. Rather, the account is used to balance the power reports, if the financials
       are out of balance. This has resulted in multiple material correcting adjustment to the
       Little Rock Corps District power reports, in order to properly state the Congressional
       Appropriations balance in the combined financial statements.

Recommendations
We recommend that management perform the following:

1. Regarding the proper accounting for the funding received through Alternative Financing:

   a. Southwestern should establish policies and procedures to account for the receipt and use
      of funds between agencies to ensure that funding balances are properly recorded within
      CEFMS when the funding is received.

2. Regarding the proper accrual for accounts payable:

   a. We recommend that management work with Corps management to implement policies
      and procedures to ensure expenses are recognized when incurred and reported in the
      proper accounting period.

3. Regarding the proper accounting for Congressional Appropriations and Interest on Federal
   Investment:

   a. The U.S. Army Corps of Engineers Districts should establish a consistent set of policies,
      procedures, internal controls and management review procedures to ensure that these
      activities are accounted for by all Corps Districts.

   b. Key Corps personnel at the U.S. Army Corps of Engineer Districts should obtain
      training over the purpose, presentation and reporting requirements of the Corps
      hydroelectric power generation function to gain a better understanding of the overall
      effect of Corps data within SWFPS’s combined financial statements.
Administrator, Southwestern Power Administration and
The Inspector General, U.S. Department of Energy:
June 18, 2012
Page 6 of 6

Management’s Response
Southwestern’s management concurs with the recommendation to establish policies and
procedures to account for the receipt and use of alternative financing funds between agencies.
The target policy implementation date is June 30, 2012.

U.S. Army Corps of Engineers Management agrees with the findings and recommendations
related to the internal control over accounting policies and procedures and will put into operation
the needed actions by June 30, 2012.

We also noted certain other matters that we reported to management of Southwestern Power
Administration, the generating agencies, the DOE, the DOE office of Inspector General in a
separate letter dated June 18, 2012.

This report is intended solely for the information and use of management of Southwestern Power
Administration, the generating agency, the DOE, the DOE Office of Inspector General, and is
not intended to be and should not be used by anyone other than these specified parties.




June 18, 2012
                                KPMG LLP
                                Suite 310
                                100 West Fifth Street
                                Tulsa, OK 74103




        Report on Compliance and Other Matters Based on an Audit of Financial
        Statements Performed in Accordance with Government Auditing Standards


Administrator, Southwestern Power Administration and
The Inspector General, U.S. Department of Energy:

We have audited the combined balance sheets of the Southwestern Federal Power System
(SWFPS) as of September 30, 2010, and 2009, and the related combined statements of changes
in net Federal investment, revenues and expenses, and cash flows for the years then ended, and
have issued our report thereon dated June 18, 2012. The combined financial statement
presentation includes all of the hydroelectric generating and power operations of one federal
agency (hereinafter referred to as the generating agency), and the transmission and disposition of
the related power by the Southwestern Power Administration (Southwestern), a separate federal
agency. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.

As part of obtaining reasonable assurance about whether SWFPS’s financial statements are free
of material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts. However, providing an
opinion on compliance with those provisions was not an objective of our audit, and accordingly,
we do not express such an opinion. The results of our tests disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards.

This report is intended solely for the information and use of management of Southwestern Power
Administration, the generating agencies, the DOE, the DOE Office of Inspector General, and is
not intended to be and should not be used by anyone other than these specified parties.




June 18, 2012




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                          IG Report No. OAS-FS-12-10

                          CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope,
        or procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could
        have been included in the report to assist management in implementing
        corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's
        overall message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the
        issues discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you
        should we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
